No. 20-1091

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JERMAINE D. HILL,
Petitioner-Appellant,
v.

CATHERINE S. BAUMAN, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

May 21,2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COOK, Circuit Judge.
Jermaine D. Hill, a Michigan prisoner proceeding pro se, appeals the district court’s denial
of his petition for a writ of habeas corpus, filed pursuant to 28 U.S.C. § 2254. This court construes
Hill’s timely notice of appeal as an application for a certificate of appealability (COA). See Fed.
R. App. P. 22(b)(2). Hill has also filed motions for a hearing pursuant to Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579 (1993), for an evidentiaiy hearing, and to proceed in forma
pauperis.
On November 10, 1995, nineteen-year-old Hill fired multiple shots at a Ford Bronco,
killing the driver and injuring the passenger. In October 1996, a jury convicted Hill of first-degree
murder, assault with intent to commit murder, and possession of a firearm during the commission
of a felony. The trial court sentenced Hill to life imprisonment without the possibility of parole
for the first-degree-murder conviction, life imprisonment for the assault-with-intent-to-commitmurder conviction, and two years’ imprisonment for the felony-firearm conviction. The Michigan
Court of Appeals affirmed. People v. Hill, No. 200313, 1998 WL 1991817 (Mich. Ct. App. Apr.
3, 1998) (per curiam). The Michigan Supreme Court denied leave to appeal. People v. Hill, 615
N.W.2d 735 (Mich. 1998) (table).

No. 20-1091
-2-

Over eighteen years later, Hill filed a motion for relief from judgment in the trial court,
arguing that he was entitled to resentencing for the murder and assault convictions under Miller v.
Alabama, 567 U.S. 460 (2012). He further argued that resentencing was warranted because his
attorney waived the hearing necessary to transfer the criminal matter out of juvenile court. The
trial court denied the motion, and the Michigan Court of Appeals denied Hill’s delayed application
for leave to appeal. The Michigan Supreme Court denied leave to appeal. People v. Hill, 919
N.W.2d 261 (Mich. 2018) (mem.).
On April 30,2019, Hill filed a § 2254 petition in the district court. Hill raised two grounds
for relief: (1) he is entitled to relief under Miller and Montgomery v. Louisiana, 136 S. Ct. 718
(2016), because, at the time of the crime, he was on “juvenile probation” pursuant to the Holmes
Youthful Trainee Act (HYTA); and (2) he is entitled to resentencing because both the Family
Court and the Circuit Court failed to conduct a ‘“phase II’ dispositional hearing” before removing
his case to the Circuit Court. The State moved to dismiss Hill’s petition on the ground that it was
barred by the one-year statute of limitations set forth in the Antiterrorism and Effective Death
Penalty Act (AEDPA). The district court concluded that Hill’s petition was untimely, denied the
petition, and declined to issue a COA.
A COA may be issued “only if the applicant has made a substantial showing of the denial
of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard, the applicant must
demonstrate that “jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). When a
district court denies a claim on procedural grounds, the court may issue a COA only if the applicant
shows “that jurists of reason would find it debatable whether the petition states a valid claim of
the denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
AEDPA imposes a one-year statute of limitations for filing federal habeas corpus petitions.
28 U.S.C. § 2244(d)(1). Generally, the one-year statute of limitations for habeas petitions filed by

No. 20-1091
-3 -

state prisoners begins to run on “the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such review.” 28 U.S.C. § 2244(d)(1)(A).
The statute provides for tolling of the limitations period during the time in which “a properly filed
application for State post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending.” 28 U.S.C. § 2244(d)(2). And, under certain circumstances, the
AEDPA limitations period may be equitably tolled. Holland v. Florida, 560 U.S. 631, 645 (2010).
“[A] ‘petitioner’ is ‘entitled to equitable tolling’ only if he shows ‘(1) that he has been pursuing
his rights diligently, and (2) that some extraordinary circumstance stood in his way’ and prevented
timely filing.” Id. at 649 (quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). A credible
showing of actual innocence may also allow a habeas petitioner to overcome AEDPA’s limitations
period. McQuiggin v. Perkins, 569 U.S. 383, 387 (2013).
For purposes of § 2244(d)(1)(A), Hill’s conviction became final on March 30, 1999, when
' the time for filing a petition for a writ of certiorari in the United States Supreme Court expired.
See Sup. Ct. R. 13.1; Bronaugh v. Ohio, 235 F.3d 280, 283 (6th Cir. 2000). Absent tolling, Hill
had one year from that date, or until March 30, 2000, to file a § 2254 petition in the district court.
Hill’s petition was untimely because he filed it in April 2019, over nineteen years after the
expiration of the limitations period. His state post-conviction motion did not have a tolling effect
because it was filed long after the limitations period had expired. See Vroman v. Brigano, 346
F.3d 598, 602 (6th Cir. 2003). Further, Hill did not allege, nor did the record reveal, any
extraordinary circumstances that would warrant equitable tolling. And Hill made no showing of
actual innocence that would allow him to overcome the limitations period.
Section 2244(d)( 1 )(C) allows for the delay of the start of the statute of limitations until “the
date on which the constitutional right asserted was initially recognized by the Supreme Court, if
the right has been newly recognized by the Supreme Court and made retroactively applicable to
cases on collateral review.” 28 U.S.C. § 2244(d)(1)(C). Hill’s claims rely on the Supreme Court’s
decision in Miller, which held that a mandatory sentence of life without parole for an individual
under the age of eighteen violates the Eighth Amendment’s prohibition against cruel and unusual

No. 20-1091
-4-

punishment, 567 U.S. at 465, and Montgomery, which made Miller retroactively applicable to
cases on collateral review, 136 S. Ct. at 736. But Miller has no impact on Hill’s case because he
was nineteen years old at the time he committed the murder and assault. Even if Hill was on
probation under the HYTA at the time, Miller did not hold that a defendant’s status as a juvenile
offender under state law prohibits imposition of a mandatory life sentence.
Moreover, even if Miller Aid have some bearing on Hill’s case, Hill’s petition would still
be untimely under § 2244(d)(1)(C) because the one-year limitations period would have
commenced on June 25, 2012, when Miller was decided, not when Montgomery made Miller
retroactively applicable to cases on collateral review. See Dodd v. United States, 545 U.S. 353,
358-59 (2005). Hill did not file his state motion for relief from judgment based on Miller until
January 2017, and it therefore had no tolling effect. See Vroman, 346 F.3d at 602. He did not file
his § 2254 petition until April 2019, well beyond the expiration of the limitations period.
Accordingly, Hill’s application for a COA and his motions for a Daubert hearing‘and an
evidentiary hearing are DENIED, and his motion to proceed in forma pauperis is DENIED as
moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

•' Case 2:19-cv-11336-PDB-MKM ECF No. 11 filed 01/16/20

PagelD.1237

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JERMAINE D. HILL,

Page 1 of 1

XX-

Petitioner,
Case No. 2:19-CV-11336
HONORABLE PAUL D. BORMAN
UNITED STATES DISTRICT COURT JUDGE

v.
RANDEE REWERTS
Respondent,

/

JUDGMENT
The above entitled matter having come before the Court on a Petition for Writ
of Habeas Corpus, Honorable Paul D. Borman, a United States District Judge,
*

t

presiding, and in accordance with the Memorandum Opinion and Order entered on
January 16, 2020:
(1) The Petition for Writ of Habeas Corpus is DENIED WITH PREJUDICE.
(2) A Certificate of Appealability is DENIED.
(3) Petitioner is denied leave to appeal in forma pauperis.
Dated at Detroit, Michigan, this 16th day of January, 2020.
DAVID J. WEAVER
CLERK OF THE COURT
APPROVED:
BY: s/D. Tofil
DEPUTY CLERK
s/Paul D. Borman
HON. PAUL D. BORMAN
UNITED STATES DISTRICT COURT JUDGE

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1227

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

Page 1 of 10

vj

JERMAINE D. HILL,
Petitioner,
CIVIL NO. 2:19-CV-11336
HONORABLE PAUL D. BORMAN
UNITED STATES DISTRICT COURT

v.

RANDEE REWERTS,
Respondent.

OPINION AND ORDER (1) SUMMARILY DENYING THE PETITION
FOR WRIT OF HABEAS CORPUS. (2) DENYING A CERTIFICATE OF
APPEALABILITY. AND (31 DENYING LEAVE TO APPEAL IN FORMA
PAUPERIS
Jermaine D. Hill, (“Petitioner”), confined at the Alger Correctional Facility
in Munising, Michigan, filed a petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254. Petitioner challenges his conviction for first-degree murder, Mich.
Comp. Laws § 750.316, assault with intent to commit murder, Mich. Comp. Laws
§ 750.83, and possession of a firearm in the commission of a felony, Mich. Comp.
Laws § 750.227b. Respondent filed a motion to dismiss the petition, on the ground
that it was not timely filed in accordance with the statute of limitations contained
in 28 U.S.C. § 2244 (d)(1). For the reasons stated below, the petition for a writ of
habeas corpus is summarily denied with prejudice.

1

v

’ Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1228

Page 2 of 10

I. BACKGROUND
Petitioner was convicted following a jury trial in the Detroit Recorder’s
Court.
Direct review of petitioner’s conviction ended in the state courts on
December 30, 1998, when the Michigan Supreme Court denied petitioner’s
application for leave to appeal following the affirmance of his conviction by the
Michigan Court of Appeals. People v. Hill, 459 Mich. 933, 615 N.W. 2d 735
(1998).
Petitioner filed a post-conviction motion for relief from judgment with the
state trial court on January 27, 2017. (See ECF No. 9-1, Page ID 73).' After the
trial court and the Michigan Court of Appeals denied petitioner post-conviction
relief, collateral review of petitioner’s conviction ended in the Michigan courts on
October 30, 2018, when the Michigan Supreme Court denied petitioner leave to
appeal the denial of his post-conviction motion. People v. Hill, 503 Mich. 887, 919
N.W. 2d 261 (2018).
On April 30, 2019, petitioner filed his habeas petition with this Court.

1 Under the prison mailbox rule, this Court will assume that petitioner actually
filed his habeas petition on April 30, 2019, the date that it was signed and dated.
See Towns v. U.S., 190 F. 3d 468, 469 (6th Cir. 1999).
2

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1229

Page 3 of 10

II. DISCUSSION
In the statute of limitations context, “dismissal is appropriate only if a
complaint clearly shows the claim is out of time.” Harris v. New York, 186 F.3d
243, 250 (2nd Cir.1999); See also Cooey v. Strickland, 479 F.3d 412, 415-16 (6th
Cir. 2007).
28 U.S.C. § 2244(d) imposes a one-year statute of limitations upon petitions
for habeas relief:
(1) A 1-year period of limitation shall apply to an application for a writ
of habeas corpus by a person in custody pursuant to the judgment of a
State court. The limitation period shall run from the latest of(A) the date on which the judgment becanie final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
States is removed if the applicant was prevented from filing by such
State action;
(C) the date on which the constitutional right asserted was originally
recognized by the Supreme Court if the right has been newly recognized
by the Supreme Court and made retroactively applicable to cases on
collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
Although not jurisdictional, the AEDPA’s one year limitations period
“effectively bars relief absent a showing that the petition’s untimeliness should be
excused based on equitable tolling and actual innocence.” See Akrawi v. Booker,
572 F. 3d 252, 260 (6th Cir. 2009).
3

.

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1230

Page 4 of 10

The Michigan Supreme Court denied petitioner’s application for leave to
appeal on December 30, 1998. However, the one year statute of limitations under
28 U.S.C. § 2244(d)(1) did not start running on that day. Where a state prisoner
has sought direct review of his conviction in the state’s highest court but never
files a petition for certiorari with the U.S. Supreme Court, the one year limitation
period for seeking habeas review under 28 U.S.C. § 2244(d)(1) begins to run not
on the date that the state court entered judgment against the prisoner, but on the
date that the 90 day time period for seeking certiorari with the U.S. Supreme Court
expired. See Jimenez v. Quarterman, 555 U.S. 113, 119(2009). Petitioner’s
judgment became final on March 30, 1999, when he failed to file a petition fdr writ
of certiorari with the U.S. Supreme Court. Thomas v. Straub, 10 F. Supp. 2d 834,
835 (E.D. Mich. 1998). Absent state collateral review, petitioner would have been
required to file his petition for writ of habeas corpus with this Court no later than
March 30, 2000 in order for the petition to be timely filed. See Corbin v. Straub,
156 F. Supp. 2d 833, 836 (E.D. Mich. 2001).
Petitioner filed a post-conviction motion with the state courts on January 27,
2017, after the one year limitations period expired. A state court post-conviction
motion that is filed after the limitations period expired does not toll that period
pursuant to 28 U.S.C. § 2244(d)(2) because there is no period left to be tolled. See

4

.

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1231

Page 5 of 10

Jurado v. Burt, 337 F.3d 638, 641 (6th Cir. 2003); see also Hargrove v. Brigano,
300 F.3d 717, 718, n. 1 (6th Cir. 2002). The petition is untimely.
Petitioner argues that his petition is timely because it is based on a
retroactive change in the law. Petitioner alleges that his sentence for life
imprisonment without parole violates the Supreme Court’s decision in Miller v.
Alabama, 567 U.S. 640, 645 (2012), in which the Supreme Court held that a
mandatory sentence of life imprisonment without parole for defendants who were
under 18 years old when they committed their crimes violates the Eighth
Amendment. Although petitioner was nineteen years old when he committed the
murder for which he received a non-parolable life sentence, petitioner argues that
the holding in Miller should be extended to a defendant like himself who was on
juvenile probation for another offense, and thus under the jurisdiction of the
juvenile court, at the time that he committed the murder. Petitioner further argues
that the one year limitations period did not commence until 2016, when the
Supreme Court in Montgomery v. Louisiana, 136 S. Ct. 718, 734 (2016) held that
Miller should be applied retroactively.
28 U.S.C. § 2244(d)(1)(C) indicates that the one year limitations period can
run from “the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by the
Supreme Court and made retroactively applicable to cases on collateral review.” A
5

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1232

Page 6 of 10

federal district court has the ability to determine whether a newly recognized right
has been made retroactively applicable to cases on collateral review, for purposes
of this section or 28 U.S.C. § 2255 ^ (3), the analogous provision of the statute of
limitations for federal motions to vacate sentence. See Wiegand v. United States,
380 F. 3d 890, 892-93 (6th Cir. 2004).
The Supreme Court’s holding in Miller is inapplicable to petitioner’s case
because petitioner was nineteen years old at the time that he murdered the victim
and Miller only invalidated mandatory non-parolable life sentences for persons
who committed their offense before they turned eighteen years old. The express
language of 28 U.S.C. § 2244(d)(1)(C) and its counterpart in 28 U.S.C. § 2255 f
(3) is limited “to decisions of the Supreme Court in which new rights are
recognized and explicitly made retroactive to cases on collateral review.” Nichols
v. United States, 285 F.3d 445, 447 (6th Cir. 2002). Because petitioner can point
to no Supreme Court decision which retroactively invalidates mandatory nonparolable life sentences for persons who committed their offense when they were
nineteen years old, petitioner cannot delay the running of the limitations period. Id.
Moreover, assuming that Miller somehow invalidated petitioner’s sentence,
the instant petition is still untimely. The one-year limitation period for filing a
petition for writ of habeas corpus or a motion to vacate sentence based on a right
that was newly recognized by the Supreme Court runs from the date on which the
6

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1233

Page 7 of 10

Supreme Court initially recognized the right asserted, not from the date on which
the right asserted was made retroactively applicable. See Dodd v. United States,
545 U.S. 353, 358 (2005). Pursuant to § 2244(d)(1)(C), the one year statute of
limitations began running from June 25, 2012, when the Supreme Court decided
Miller, and not from the date of the decision in Montgomery, which held Miller to
be retroactive. See Malvo v. Mathena, 259 F. Supp. 3d 321, 330 (D. Md. 2017).
Petitioner therefore had until June 25, 2013 to timely file his habeas petition or to
file his post-conviction motion for relief from judgment to toll the limitations
period. Because petitioner did not file his post-conviction motion for relief from
judgment until January 27, 2017, after the limitations period had expired, the
instant petition is untimely.
The AEDPA’s statute of limitations “is subject to equitable tolling in
appropriate cases.” Holland v. Florida, 560 U.S. 631, 645 (2010). A habeas
petitioner is entitled to equitable tolling “only if he shows ‘(1) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way’” and prevented the timely filing of the habeas petition. Id. at 649
(quoting Pace v. DiGuglielmo, 544 U.S. 408, 418 (2005)). Petitioner is not entitled
to equitable tolling of the one year limitations period, because he failed to argue or
show that the facts of case support equitable tolling. See Giles v. Wolfenbarger,
239 F. App’x. 145, 147 (6th Cir. 2007).
7

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1234

Page 8 of 10

The one year statute of limitations may be equitably tolled if the petitioner
can make a credible showing of actual innocence under the standard enunciated in
Schlup v. Delo, 513 U.S. 298 (1995). McQuiggin v. Perkins, 569 U.S. 383, 386
(2013). The Supreme Court cautioned that “tenable actual-innocence gateway
pleas are rare[.]” Id. “[A] petitioner does not meet the threshold requirement
unless he persuades the district court that, in light of the new evidence, no juror,
acting reasonably, would have voted to find him guilty beyond a reasonable
doubt.” Id. (quoting Schlup, 513 U.S., at 329). For an actual innocence exception
to be credible under Schlup, such a claim requires a habeas petitioner to support his
’

or her allegations of constitutional error “with new reliable evidence-whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical
physical evidence—that was not presented at trial.” Schlup, 513 U.S. at 324.
Petitioner’s case falls outside of the actual innocence tolling exception,
because he presented no new, reliable evidence to establish that he was actually
innocent of the crime charged. See Ross v. Berghuis, 417 F.3d 552, 556 (6th Cir.
2005).
III. CONCLUSION
Based on the foregoing analysis, the Court concludes that petitioner failed to
file his habeas petition within the one-year limitations period established by 28
U.S.C. § 2244(d) and the statute of limitations precludes federal review of the
8

•

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1235

Page 9 of 10

petition. Accordingly, the Court summarily dismisses with prejudice the petition
for writ of habeas corpus.
Before petitioner may appeal this Court’s dispositive decision, a certificate
of appealability must issue. See 28 U.S.C. § 2253(c)(1)(a); Fed. R.App. P. 22(b).
A certificate of appealability may issue “only if the applicant has made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
When a federal district court denies a habeas claim on procedural grounds without
addressing the claim’s merits, a certificate of appealability should issue, and an
appeal of the district court’s order may be taken, if the petitioner shows that jurists
of reason would find it debatable whether the petitioner states a valid claim of the
denial of a constitutional right, and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling. See Slack v.
McDaniel, 529 U.S. 473, 484-85 (2000). When a plain procedural bar is present
and the district court is correct to invoke it to dispose of the matter, a reasonable
jurist could not conclude either that the district court erred in dismissing the
petition or that the petition should be allowed to proceed. In such a case, no appeal
is warranted. Id. “The district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” Rules
Governing § 2254 Cases, Rule 11(a), 28 U.S.C. foil. § 2254; See also Strayhorn v.
Booker, 718 F. Supp. 2d 846, 875 (E.D. Mich. 2010).
9

Case 2:19-cv-11336-PDB-MKM ECF No. 10 filed 01/16/20

PagelD.1236

Page 10 of 10

After conducting the required inquiry and for the reasons stated herein, the
Court is satisfied that jurists of reason would not find the Court’s procedural ruling
debatable. No certificate of appealability is warranted in this case. Accordingly,
the Court denies a certificate of appealability. The Court also denies petitioner
leave to appeal in forma pauperis, because the appeal would be frivolous. Allen v.
Stovall, 156 F. Supp. 2d 791, 798 (E.D. Mich. 2001).
IV. ORDER
Accordingly, the Court SUMMARILY DENIES WITH PREJUDICE the
petition for a writ of habeas corpus. The Court further DENIES a certificate of
appealability and leave to appeal in forma pauperis.
SO ORDERED.

Dated: January 16, 2020

s/Paul D. Borman
Paul D. Borman
United States District Judge

10

